                                                         NATIONAL SCIENCE FOUNDATION
                                                          OFFICE OF INSPECTOR GENERAL
                                                            OFFICE OF INVESTIGA nONS

                                                  CLOSEOUT MEMORANDUM

Case Number: AI0050036                                                                                      Page 1 of 1



                NSF OIG received an allegation regarding a failure to share NSF-funded 1 data.
        Specifically, it was alleged that a gradQate studentlpostdoc (Subject)2 produced data in
        collaboration with his NSF-funded mentor (PI)3 using NSF funds, but subsequently failed to
        provide the data to the mentorlPI. The Subject responded to the allegation by asserting
                                                                                                     4
        ownership of the underlying idea and production of the data independently of NSF funding. The
        data in question was collected in a laboratory at another university (University Laboratory) on a
        fee-for-service basis. 5                                                     '

                                                                                                                       6
                Based on documentation we reviewed, we determined the PI and awardee institution
      \. were invoiced for the data collection ses~ions and paid the invoices, and as such the PI was
      "entitled to the complete set of data he funded. We further determined the Subject had improperly
         withheld said data from the PI.

                 During our review, the PI informedus7 that the University Laboratory provided him with
        all of the data in question, resolving the data sharing matter.

                 Our office will send the Subject a Questionable Research Practice letter reminding him of
         his responsibility to share NSF-funded'data.

                  Accordingly, this case is closed.




                           currently ofthe
         4 The PI and the Subject raised numerous allegations against each other. Our review of the allegations and
         documentary evidence indicate that the relationship between the PI and the Subject is strained and indicative of a
         dissolved mentor/mentee relationship. We determined that other allegations were predominantly authorship and
         collaboration issues rather than research misconduct and/or were allegations outside NSF OIG jurisdiction.
         S Data was collected at the
         6••
         7   In an email d a t e d _ .




NSF OIG Form 2 (11/02)
